CERTIFICATE OF SERVICE

I Andrey L. Bridges, certify or state; that a copv of the forgoing was placed in the
prison mail box on this

is

WtMYMb'Y'

day of

2020; and was sent to Warden,

of Belmont Correctional Institution, P.O. Box 540 St. Clairsville, Ohio 43950; and
his respective Attorney, at the Attorney General Office, 150 East Gay street,
Columbus, Ohio 43215.
The copy was sent First Class Pre Paid, and sent by the U.S. Mail Service.

Respectfully submitted,

Andrey L. (Bridges #A650-493
Belmont Correctional Institution
P.O. Box 540
68518 Bannock Road
St. Clairsville, Ohio 43950

3

!

CERTIFICATE OF SERVICE
I, Andrey L. Bridges, certify or state; that a copy of the forgoing was placed in the
'TU
A)
prison mail box on this
K day of August, 2020; and was sent to Warden, of
Belmont Correctional Institution, P.O. Box 540 St. Clairsville, Ohio 43950; and his
respective Attorney, at the Attorney General Office, 150 East Gay street, Columbus,
Ohio 43215. The copy was sent First Class Pre Paid, and sent by the U.S. Mail
Service.
Respectfully submitted.

Andrey L. Bridges ®M>50-493
Belmory; Correctional Institution
P.O. Box 540
68518 Bannock Road
St. Clairsville, Ohio 43950 Pro se

42

